No. - - - - - - - -

IN THE SUPREME COURT
OF THE UNITED STATES

JUSTIN DOUGLAS JONES,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS
The petitioner, Justin Douglas Jones, requests leave to file the attached petition for
writ of certiorari to the United States Court of Appeals for the Ninth Circuit without
prepayment of costs and to proceed in forma pauperis pursuant to Rule 39.1 of this Court
and 18 U.S.C. ยง 3006A(d)(7). The petitioner was represented by counsel appointed under
the Criminal Justice Act in the District of Oregon and on appeal in the Ninth Circuit Court
of Appeals, and therefore no affidavit is required.
Respectfully submitted this 24th day

I
Stephen R. Sady
Attorney for Petitioner

